                                            AAAAAAAAAAAAAAAAA




               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections and Special Inquiries




Inspection Report 


Internal Controls over Accountable
Classified Removable Electronic Media
at Oak Ridge National Laboratory




 INS-O-09-02                                       May 2009
                                 Department of Energy
                                     Washington, DC 20585

                                          May 4, 2009




MEMORANDUM FOR THE MANAGER, OAK RIDGE OFFICE 



FROM:                   Elise M. Ennis
                        Assistant Inspector General for Inspections

SUBJECT:                INFORMATION: Inspection Report on “Internal Controls over
                        Accountable Classified Removable Electronic Media at Oak Ridge
                        National Laboratory”

BACKGROUND

The Department of Energy’s Oak Ridge National Laboratory (ORNL) conducts cutting edge
scientific research. ORNL utilizes removable electronic media, such as computer hard drives,
compact disks, data tapes, etc., to store vast amounts of classified information. Incidents
involving breakdowns in controls over classified removable electronic media have been a
continuous challenge for the Department. The loss of even one piece of such media can have
serious national security implications.

In 2004, the Department had a complex-wide “stand-down” of all activities using classified
removable electronic media, and such media containing Secret/Restricted Data or higher classified
data was designated “Accountable Classified Removable Electronic Media” (ACREM). As part of
the stand-down, sites were required to conduct a 100 percent physical inventory of all ACREM;
enter it all into accountability; and conduct security procedure reviews and training. Further, the
Department implemented a series of controls, including conducting periodic inventories, utilizing
tamper proof devices on ACREM safes, and appointing trained custodians to be responsible for the
material. After performance testing and validation that the required accountability systems were in
place, ACREM operations at ORNL were approved for restart on August 10, 2004.

We conducted a review at ORNL and associated facilities to determine whether ACREM is
managed, protected, and controlled consistent with applicable requirements.
RESULTS OF INSPECTION

We found that:

    •	 Eight pieces of Secret/Restricted Data media had not been identified as ACREM and
       placed into a system of accountability. Consequently, the items were not subject to all
       required protections and controls, such as periodic accountability inventories,
       oversight by a trained custodian, or storage in a designated ACREM safe. (However,
       the items were secured in safes approved for classified material.)

    •	 Other required ACREM protections and controls were not implemented as follows: a
       tamper indicating device was not being used on an ACREM safe; records
       documenting when a certain safe was opened did not support that a purported
       inventory had been conducted; and a safe inventory had not been completed in a
       timely manner.

    •	 A Personal Digital Assistant and a thumb drive, both capable of recording or
       transmitting data, were stored in a security area without an analysis to identify
       vulnerabilities and compensatory measures having been conducted, as required.

We also found that an ORNL Cooperative Research and Development Agreement partner had
not disabled classified computer ports at the partner’s site that were capable of writing
classified information to external or removable media, as required.

We made several recommendations designed to enhance the security of ACREM, security
areas, and computers.

MANAGEMENT REACTION

In responding to a draft of this report, management concurred with our recommendations.
Management’s comments are included in their entirety in Appendix C.

Attachment

cc: 	   Chief of Staff
        Director, Office of Science
        Chief Health, Safety and Security Officer
        Director, Office of Internal Review (CF-1.2)
        Audit Liaison, Oak Ridge Office
INTERNAL CONTROLS OVER ACCOUNTABLE CLASSIFIED
REMOVABLE ELECTRONIC MEDIA AT OAK RIDGE
NATIONAL LABORATORY


TABLE OF
CONTENTS
              OVERVIEW

              Introduction and Objective        1    


              Observations and Conclusions      2    



              DETAILS OF FINDINGS

              ORNL ACREM Accountability         3


              ACREM Protections                 3


              Other Concerns                    4



              RECOMMENDATIONS                   5    



              MANAGEMENT COMMENTS               5    



              INSPECTOR COMMENTS                5    



              APPENDICES

              A. Scope and Methodology          6    


              B. Prior Reports                  7


              C. Management Comments            8

Overview 


INTRODUCTION 
   The Department of Energy’s (DOE’s) Oak Ridge National
AND OBJECTIVE
   Laboratory (ORNL), located in Oak Ridge, Tennessee, conducts
                 cutting edge scientific research. ORNL, managed and operated by
                 UT-Battelle, LLC, handles and stores some of the Nation’s most
                 sensitive information. DOE’s Oak Ridge Office oversees the UT-
                 Battelle contract.

                 ORNL utilizes removable electronic media, such as computer hard
                 drives, compact disks, data tapes, etc., to store vast amounts of
                 classified information. Incidents involving breakdowns in controls
                 over classified removable electronic media have been a continuous
                 challenge for DOE. The loss of even one piece of such media can
                 have serious national security implications.

                 In 2004, the then DOE Deputy Secretary required a “stand-down”
                 of all activities using classified removable electronic media at each
                 DOE site in order to initiate enhanced security measures. DOE
                 designated classified removable electronic media containing
                 Secret/Restricted Data (S/RD) or higher classified data as
                 “Accountable Classified Removable Electronic Media” (ACREM).
                 DOE and its contractors were tasked to conduct a 100 percent
                 physical inventory of all ACREM; enter all ACREM into an
                 accountability system; and conduct security procedure reviews and
                 ACREM custodian training. Recognizing the security risks
                 associated with ACREM, DOE implemented a series of controls,
                 including conducting periodic inventories, utilizing tamper proof
                 devices on ACREM safes, and appointing trained custodians to be
                 responsible for ACREM. After performance testing and validation
                 that the required ACREM accountability systems were in place, the
                 Deputy Secretary approved a restart of ACREM operations at
                 ORNL on August 10, 2004.

                 We conducted a review at ORNL and associated facilities to
                 determine whether ACREM is managed, protected, and controlled
                 consistent with applicable requirements. Specifically, we
                 inventoried virtually all the ACREM in accountability at ORNL, as
                 well as a small sample of ACREM held by an ORNL Cooperative
                 Research and Development Agreement partner. Further, we
                 reviewed the contents of a sample of non-ACREM safes (safes
                 identified as not containing ACREM and not under ACREM
                 custodian control) at ORNL to determine if any ACREM materials
                 were unidentified or uncontrolled.




Page 1                                     Internal Controls over Accountable
                                        Classified Removable Electronic Media
                                             at Oak Ridge National Laboratory
OBSERVATIONS AND   At ORNL, we found that:
CONCLUSIONS
                   •	 Eight pieces of S/RD media had not been identified as ACREM
                      and placed into a system of accountability. Consequently, the
                      items were not subject to all required protections and controls,
                      such as periodic accountability inventories, oversight by a
                      trained ACREM custodian, or storage in a designated ACREM
                      safe. (We noted that the eight items were secured in safes
                      approved for the storage of classified material.)

                   •	 Other required protections and controls for ACREM were not
                      implemented as follows: a tamper indicating device was not
                      being used on an ACREM safe; records documenting when a
                      certain safe was opened did not support that a purported
                      inventory of ACREM had been conducted; and an ACREM
                      safe inventory had not been completed in a timely manner.

                   •	 A Personal Digital Assistant (PDA) and a thumb drive, both
                      capable of recording or transmitting data, were stored in a
                      security area without an analysis to identify vulnerabilities and
                      compensatory measures having been conducted, as required.

                   We also found that the ORNL Cooperative Research and
                   Development Agreement partner, the United States Enrichment
                   Corporation (USEC), had not disabled classified computer ports
                   capable of writing classified information to external or removable
                   media, as required. This was discovered at an offsite USEC
                   facility.

                   To timely address specific security concerns, we notified ORNL
                   officials of our findings during our fieldwork. The officials took
                   prompt actions, including placing the eight pieces of ACREM into
                   accountability; issuing two Incident of Security Concern reports;
                   and, providing ACREM training to custodians. In addition, the
                   Oak Ridge Office issued guidance to USEC to disable ports on its
                   classified computers.

                   Appendix A to this report provides information regarding the
                   scope and methodology of this inspection. Appendix B contains a
                   list of related DOE Office of Inspector General and Government
                   Accountability Office reviews regarding ACREM management,
                   protection, and controls.




Page 2	                                             Observations and Conclusions
Details of Findings 


ORNL ACREM         At ORNL, we found that eight pieces of S/RD media had not been
ACCOUNTABILITY     identified as ACREM and placed into a system of accountability.
                   As a result, the items were not subject to all required protections
                   and controls, such as periodic accountability inventories, oversight
                   by a trained ACREM custodian, or storage in a designated
                   ACREM safe.

                   We noted that four of the eight items were found in designated
                   ACREM safes that had been subject to inventories, but the
                   custodians failed to identify the items. This called into question
                   the quality of the inventories conducted. The remaining four items
                   were found in non-ACREM safes used to store information
                   classified as Secret and lower, which did not require periodic
                   inventory. Of particular concern was a Bernoulli disk stored in a
                   non-ACREM safe. An ORNL official informed us that the disk
                   was placed in the non-ACREM safe approximately 8 to 10 years
                   ago, meaning that the disk was not identified during the 2004
                   DOE-wide stand down that was supposed to have identified all
                   ACREM.

                   As a result of our inspection, ORNL placed the eight pieces of
                   ACREM into accountability, provided custodian training, and
                   submitted two Incident of Security Concern reports to DOE’s
                   Office of Health, Safety and Security.

ACREM              We found that other required protections and controls for ACREM
PROTECTIONS        were not implemented at ORNL as follows.

Tamper             A tamper indicating device was not being used on an ACREM
Indicating         safe. DOE Manual 470.4-4, “Information Security,” requires that
Devices            safes that store ACREM use tamper indicating devices, such as
                   seals or “XO” series combination locks that would indicate possible
                   unauthorized ACREM access. The XO series lock displays a
                   sequential number that must be recorded each time the safe is
                   accessed. XO series lock numbers out of sequence require a
                   security notification. We determined that the custodian of an
                   ORNL safe with an XO series lock had not recorded the lock’s
                   sequential number when the safe was accessed, and no other tamper
                   indicating device was being used. The safe’s custodian said he/she
                   had never received tamper indicating device training and was not
                   aware that a tamper indicating device was required. The custodian
                   also said he/she was not aware of the requirement to record the
                   lock’s sequential number when the safe was accessed. After we
                   identified this issue, we were told that ORNL applied tamper proof
                   seals to the ACREM safe and provided training to the custodian.



Page 3                                                            Details of Findings
ACREM Record      We also found that the records documenting when a certain safe
Discrepancy       was opened did not support that a purported inventory of ACREM
                  had been conducted. According to DOE Manual 470.4-4, an
                  inventory is to include a physical comparison of items in an
                  ACREM safe against a current inventory listing. We compared the
                  dates that inventories were supposedly completed with the opening
                  numbers of the corresponding safe’s XO series lock and determined
                  that an inventory had purportedly been conducted on a date when
                  there was no indication that the safe had been opened. As a result,
                  ORNL issued the safe custodian who signed the inventory a
                  security infraction for not opening the safe to conduct the inventory.

ACREM Inventory   Further, we found that an ACREM safe inventory had not been
                  completed in a timely manner. Inventory controls are essential to
                  ensure the protection and storage of ACREM. DOE Manual
                  470.4-4 requires that, at a minimum, ACREM inventories be
                  conducted no less than once a year in the event of infrequent
                  access. We determined that an inventory of one ACREM safe had
                  not been completed in 16 months. ORNL was not aware that the
                  inventory had not been conducted until we identified the concern.
                  We were told that the custodian subsequently received training on
                  ACREM inventory procedures.

OTHER CONCERNS    During our inspection, we identified other security issues as
                  follows.

Controlled        We found that ORNL stored a PDA and a thumb drive,
Items             both controlled articles capable of recording or transmitting data,
                  in a security area without conducting an analysis to identify
                  vulnerabilities and compensatory measures, as required. DOE
                  Manual 470.4-2, “Physical Protection,” requires that controlled
                  articles stored in a security area must be analyzed to identify
                  vulnerabilities and to determine what countermeasures must be
                  taken to prevent compromise. We determined that the PDA and
                  the thumb drive contained classified information and had been
                  confiscated by ORNL cyber security investigators. We were
                  informed that an appropriate authorization to store these controlled
                  items in the security areas was subsequently completed by ORNL.

Computer Ports    We found that USEC had not disabled classified computer ports
                  capable of writing classified information to external or removable
                  media, as required. In 2006, the then DOE Deputy Secretary required
                  that the ports of all classified systems at each laboratory and other
                  DOE facilities operating classified computer systems be disabled to
                  protect against both insider and outsider threats. Further, DOE
                  Manual 205.1-4, “National Security System Manual,” requires that



Page 4                                                           Details of Findings
                  ports and/or devices capable of writing classified information to
                  removable or external media be protected from unauthorized use.

                  DOE provided classified information to USEC as part of a
                  Cooperative Research and Development Agreement to develop
                  centrifuge technology at an offsite facility. The Agreement required
                  that USEC conform to all DOE regulations and requirements.
                  However, we found that USEC had not disabled the ports on
                  computers that contained information classified up to S/RD provided
                  by DOE. We noted that DOE security officials previously had
                  identified two separate findings regarding the ports. Subsequent to
                  our raising this issue, we were provided a copy of a letter from USEC
                  stating that it had taken action to comply with the requirement to
                  disable the ports on classified computers.

RECOMMENDATIONS   We recommend that the Manager, Oak Ridge Office:

                  1.	 Review all safes at ORNL authorized to store classified
                      information, whether or not designated to store ACREM, to
                      ensure that all ACREM has been identified and placed into
                      accountability;

                  2.	 Ensure that ACREM inventories at ORNL are conducted
                      within required time frames and include a physical comparison
                      of each item against a current inventory;

                  3.	 Ensure that proper authorization is obtained to store controlled
                      items in a security area;

                  4.	 Given the diverse findings involving various individuals,
                      ensure that employees who handle S/RD are provided
                      appropriate training regarding ACREM accountability and
                      other controls; and,

                  5.	 Ensure that ports on classified computers at USEC have been
                      disabled.

MANAGEMENT        In comments on a draft of this report, the Department’s Oak Ridge
COMMENTS          Office concurred with our recommendations. We have included
                  management’s comments in Appendix C.

INSPECTOR         We consider management’s comments to be generally responsive
COMMENTS          to our recommendations.




Page 5                                                     Recommendations
                                          Management and Inspector Comments
Appendix A 


SCOPE AND 	     Our review included ACREM activities at ORNL and associated
METHODOLOGY 	   facilities. The majority of our fieldwork was conducted from
                March through June 2008. It included interviews with DOE and
                contractor officials. Our document review and analysis and
                fieldwork activities included:

                •   DOE and local policies and regulations pertaining to ACREM;

                •   Selected samples of ACREM safes and other classified safes;

                •   Specific Site Security Plans;

                •   Local and independent ACREM assessment reports; and,

                •   Prior Office of Inspector General and other related reports.

                We assessed compliance with the Government Performance and
                Results Act of 1993. Our review indicated that DOE established
                performance measures related to information security, although
                none specifically related to ACREM.

                This inspection was conducted in accordance with the “Quality
                Standards for Inspections” issued by the President’s Council on
                Integrity and Efficiency.




Page 6	                                                 Scope and Methodology
Appendix B 


PRIOR REPORTS 	   The following are prior related DOE Office of Inspector General
                  reports:

                  •	 Special Inquiry Report to the Secretary, “Selected Controls
                     over Classified Information at the Los Alamos National
                     Laboratory” (November 27, 2006);

                  •	 “Destruction of Classified Hard Drives at Sandia National
                     Laboratory-New Mexico” (DOE/IG-0735, August 3, 2006);

                  •	 “Security and Other Issues Related to Out-Processing of
                     Employees at the Los Alamos National Laboratory”
                     (DOE/IG-0677, February 22, 2005); and,

                  •	 “Internal Controls Over Classified Computers and Classified
                     Removable Media at the Lawrence Livermore National
                     Laboratory” (DOE/IG-0628, December 5, 2003).

                  The following are prior reports issued by the Government
                  Accountability Office that had similar findings:

                  •	 “STAND-DOWN OF LOS ALAMOS NATIONAL
                     LABORATORY Total Costs Uncertain; Almost All Mission-
                     Critical Programs Were Affected but Have Recovered” (GAO-
                     06-83, November 2005); and,

                  •	 “Nuclear Security: Lessons to Be Learned from Implementing
                     NNSA’s Security Enhancements” (GAO-02-358, March 2002).




Page 7	                                                              Prior Reports
Appendix C 


DOE F 1325.8



United States Government 	                                               Department of Energy
                                                                                        Oak Ridge Office


memorandum

        DATE:        April 13, 2009
  REPLY TO
   ATTN OF:          FM-733:Miller
  SUBJECT:           DRAFT INSPECTION REPORT ON “INTERNAL CONTROLS OVER
                     ACCOUNTABLE CLASSIFIED REMOVABLE ELECTRONIC MEDIA
                     AT THE OAK RIDGE NATIONAL LABORATORY” (SO81S005)
               TO:   Elise M. Ennis, Assistant Inspector General for Inspections and Special Inquiries,
                      IG-40, FORS


                     This is in response to your March 13, 2009, memorandum with attached draft
                     report, subject as above. Following are the Oak Ridge Office’s comments to the
                     report recommendations as well as our comments on the accuracy of facts presented
                     in the report:

                     Recommendations: That the Manager, Oak Ridge Office:

                     1.	 Review all safes at ORNL authorized to store classified information,
                         whether or not designated to store ACREM, to ensure that all ACREM has
                         been identified and placed into accountability;

                     Management Response:

                     Concur. Note that there was no evidence of loss or compromise of any classified
                     information.

                     2.	 Ensure that ACREM inventories at ORNL are conducted within required
                         time frames and include a physical comparison of each item against a
                         current inventory;

                     Management Response:

                     Concur.

                     3.	 Ensure that proper authorization is obtained to store controlled items in a
                         security area;


Page 8	                                                                      Management Comments
Appendix C (continued) 


          Elise M. Ennis 	                        -2-                        April 13, 2009

          Management Response:

          Concur. Although not ACREM, two controlled articles were discovered inside a
          GSA-approved repository located inside a Limited Security Area (LSA). ORNL, in
          conjunction with the ORNL Site Office, has a very formal process for allowing and
          approving controlled articles to be brought into a LSA. The formal process was not
          followed in this one instance. Follow-on Self-Assessments have not identified any
          similar failures to follow the formal process.

          4.	 Given the diverse findings involving various individuals, ensure that
              employees who handle S/RD are provided appropriate training regarding
              ACREM accountability and other controls; and

          Management Response:

          Concur.

          5. Ensure that ports on all classified computers at USEC have been disabled.

          Management Response

          Concur.

          COMMENTS ON ACCURACY OF FACTS:

          The following suggested clarifications are provided (in italicized text):

          Page 2, fourth paragraph:

          We also found that the ORNL Cooperative Research and Development Agreement
          partner, the United States Enrichment Corporation (USEC), had not disabled
          classified computer ports capable of writing classified information to external or
          removable media, as required. This was discovered at an offsite USEC facility, not
          on the ORNL site.



                                                             Signed

                                                          Judith M. Penry
                                                          Chief Financial Officer




Page 9	                                                            Management Comments
Appendix C (continued) 


          cc:
          George J. Malosh, SC-3, FORS
          Gerald G. Boyd, M-1, ORO
          Robert J. Brown, M-2, ORO
          Pauline L. Douglas, OS-20, ORO
          Johnny O. Moore, SC-10, ORO




Page 10                                    Management Comments
                                                                      IG Report No. INS-O-09-02


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2.	 What additional information related to findings and recommendations could have been
    included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report’s overall
    message clearer to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should we have
    any questions about your comments.


Name	                                         Date

Telephone 	                                   Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1) 

                                     Department of Energy 

                                    Washington, DC 20585 


                                  ATTN: Customer Relations 


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
